Wayne N. Outten
WNO@outtengolden.com
Tel: (212) 245-1000
September 16, 2020

VIA ELECTRONIC FILING
Mr. Scott Harris, Clerk
Supreme Court of the United States
1 First Street, N.E.
Washington, D.C. 20543
Re:

Chipotle Mexican Grill, Inc. v. Maxcimo Scott, et al.: No. 20-257

Dear Mr. Harris:
Respondent Maxcimo Scott consents to the filing of amicus curiae briefs in support of
Chipotle Mexican Grill, Inc.’s petition for certiorari in the above-referenced case. This blanket
consent does not extend to any amicus briefs filed at the merits stage, in the event that the
petition is granted.
Thank you for your assistance in this matter. Please do not hesitate to contact me with
any questions you may have.
Sincerely,

Wayne N. Outten
Counsel of Record for Respondent

cc:

Kannon K. Shanmugam, Counsel of Record for Petitioner (by US mail)
Melissa Stewart

